Supreme Court, U.S.
FILED

AUG 1 7 2021
OFFICE OF THE CLERK

No.
In The
SUPREME COURT OF THE UNITED STATES

Carrie Rae Eldridge,
Petitioner
v.

United States of America,
Respondent

On Petition for Writ of Certiorari to the
United State Court of Appeals
for the Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

Carrie Rae Eldridge, in propria persona
1247 Ramona Street
Ramona, California 92065
(858)663-5548

TABLE OF CONTENTS
Section

Page

Table of Contents..............................................................................
Table of Constitutional Authorities..............................................
Table of Statutes...............................................................................
Table of Case Authorities ...............................................................
Issues & Questions Presented .......................................................
Opinions Appealed............................................................................
Jurisdictional Statement.................................................................
Cause for the Petition......................................................................
The Standards of Statutory Construction....................................
ISSUE ARGUMENTS....................................................................
ISSUE A - Does subject-matter jurisdiction exist to
enforce the income tax as a direct tax without limitation
ISSUE B - Is the graduated taxation of citizens
unconstitutional class legislation that unlawfully
discriminates............................................................................
ISSUE C - Does graduated taxation of the American citizens
destroy equal protection under the 14th Amendment........
ISSUE D - Is a deficiency under IRC Sections 6211 and
6212 based only upon the Subtitle “A” tax laws................
Summary and conclusion................................................................
Relief requested................................................................................
Prayer for justice...............................................................................

l
li
li

n
IV

1
1
1
8
9
9

18
26
30
35
35
36

Appendix - Orders Appealed
9th Circuit Mandate........
9th Circuit Order.............
9th Circuit Memorandum
U.S. Tax Court Order....
U.S. Tax Court Decision .

A-i
A-ii
A-iii
..A-v
A-vi

Certificate of Compliance
Certificate of Service

i

TABLE OF CONSTITUTIONAL AUTHORITIES
16th Amendment.................
Article I, Section 2, clause 3
Article I, Section 8, clause 1
Article I, Section 9, clause 4

12, passim
.........9, 13
......passim
.........9, 13

TABLE OF STATUTES
Title
Title
Title
Title
Title
Title

15 U.S.C.
26 U.S.C.
26 U.S.C.
26 U.S.C.
26 U.S.C.
26 U.S.C.

Section
Section
Section
Section
Section
Section

17..............
1461..........
6211..........
6212..........
1441(b).....
7701(a)(16)

21
30, passim
30, passim
31, passim
. 32, passim
33

TABLE OF CASE AUTHORITIES
Case

Page

Billings v. U.S., 232 U.S. 261, 34 S.Ct. 421 (1914).........
15
Brushaber v. Union Pacific R.R. Co.,
240 U.S. 1 (1916).......................................................... 13, 14, passim
Boyd v. United States, 116 U.S. 616 (1886).....................
29
Butchers' Union Co. v. Crescent City Co.,
Ill U.S. 746, 762..........................................................
27, 28

Coppage v. Kansas, 236 U.S. 1, 14, 59 L.Ed. 441, L.R.A.
1915C, 960, 35 S.Ct.Rep. 240 (1915)....................

26, 27

DeSoto Securities Co. v. Commissioner,
235 F.2d 409, 411 (7th Cir. 1956)..............................
8
Flint v. Stone Tracy Co., 220 US 107 (1911).................... 4, 11, 15, 16
Flora v. United States, 362 U.S. 145.................................
34
Marbury u. Madison, 5th US (2 Cranch) 137, (1803)....
29
Massachusetts Bd. Of Retirement v. Murgia,
427 U.S. 307, 96 S.Ct. 2562 (1976)............................
28
Meyer v. Nebraska, 262 U.S. 390, 43 S.Ct. 625 (1923)...,
28
Miranda u. Arizona, 384 U.S. 436, 491 (1966)................
29
Peck & Co. v. Lowe, 247 U.S. 165, 172 (1918)..................
16
Pollock v. Farmers' Loan & Trust Co.,
157 U. S. 429, 157 U. S. 570 ................................
passim

u

TABLE OF CASE AUTHORITIES (cont.)
Case

Page

Reiter v Sonotone Corp., 442 US 330, 337, 60 L Ed 2d
931, 99 S Ct. 2326 (1979).........................................
Richards v. United States, 369 US 1, 9,
82 S. Ct. 585, 590, 7 L.Ed. 2d 492 (1962 ...............
Slaughter-House Cases, 16 Wall. 36..............................
Stanley v. Illinois, 405 U.S. 645, 654-657,
92 S.Ct. 1208, 1214-1216 (1972) ...........................
Stanton v. Baltic Mining Co., 240 U.S. 103 (1916).......
State of Rhode Island v. The State of
Massachusetts, 37 U.S. 709, 718 (1838).................
Steel Co., aka Chicago Steel & Pickling Co. v. Citizens
For A Better Environment, No. 96-643, 90 F.3d
1237 (1998)..................................................................
Steward Mach. Co. v. Collector, 301 U.S. 548 (1937) ...
Stratton's Independence, Ltd. V. Howbert,
231 U.S. 399, at 416 - 417 (1913)...........................
Truax v. Raich, 239 U.S. 33 (1915)...................................
U.S. Department of Agriculture v. Murry........................
Water Quality Ass 'n v. United States,
795 F.2d 1303 (7th Cir. 1986)..................................
Yick Wo v. Hopkins, 118 U.S. 356 (1886)........................

iii

8
8
28
33
4, 14, 21, 35
17

17
15
11, 16
27, 28
33
8
27, 28

ISSUES & QUESTIONS PRESENTED
A. Does subject-matter jurisdiction exist to enforce the income tax as a
direct tax without limitation under the 16th Amendment?
B. Is the graduated taxation of citizens unconstitutional class
legislation that unlawfully discriminates against them by classifying
them differently, rather than treating them uniformly?
C. Does the graduated taxation of the American citizens destroy equal
protection under the 14th Amendment when imposed directly upon
them without uniformity?
D. Is a deficiency under IRC Sections 6211 and 6212 based only upon
the Subtitle “A” tax laws as stated therein?

IV

OPINIONS APPEALED
Carrie Rae Eldridge v. Commissioner of Internal Revenue (U.S. Ninth Circuit Court
of Appeals, No. 20-70221) an appeal from the United States Tax Court, U.S. Tax
Court No.: 14744-18.

JURISDICTIONAL STATEMENT
This Petition for Writ of Certiorari, filed by a pro se Petitioner is filed pursuant to 28
U.S.C. § 1254(1). The Petition seeks review of the Ninth Circuit Court of Appeal's
Order in case No. 20-70221.
CAUSE FOR THE PETITION
The enforcement operations of the Internal Revenue Service, with respect to its
improper enforcement of the class legislation of the non-uniform federal personal
income tax as a direct tax without limitation under the 16th Amendment, violates
the Constitution. The class legislation of the graduated federal personal income tax
is responsible for the division of the American people, who are now divided precisely
along the class lines created by the tax-brackets of the graduated income tax law.
The result of the mal-administration of this class legislation will ultimately be the
complete destruction of our entire Constitutional Republic if the mal-administration
of the law By the IRS is not addressed and corrected by this court. This has now
become a matter of the highest level of national importance possible.

The class legislation of the federal personal income tax is destroying our
constitutional system of a representative government, of a people united under a
common Supreme Law (the Constitution), that creates, preserves, and protects equal
opportunity, equal protection, and the equal rights of all Americans, without
creating classes of citizens within the law that are treated differently under it. The
class legislation of the communistically graduated income tax, that is mal
administered today in place of constitutionally uniform indirect taxation authorized,

1

has resulted in the creation of the repugnant and destructive class warfare that is
now tearing America apart.

Since the late 1800s, the use by Congress of tax-brackets in the law, with different
rates of tax imposed on the persons of each bracket, is based on the power of
Congress to discriminate against the privileged persons (and the inanimate
commodities and articles of commerce) that are subject to taxation by the indirect
powers {Impost, Duty, Excise); where the amount of taxation imposed is graduated,
depending upon the amount of income realized from the privilege that is possessed,
where the privilege is subjected to excise taxation.

But the U.S. Congress possesses no power what-so-ever to discriminate in law
against the American citizens themselves, on any basis, including income,
particularly when earned through the exercise of a non-taxable right, rather than on
the basis of a taxable privilege that is enjoyed, and from which taxable income is
derived.

The Internal Revenue Service (IRS), the Department of Justice (DOJ), and the lower
federal courts are not adhering to, and are in fact violating, both the U.S.
Constitution and the written laws of the Internal Revenue Code in their income tax
enforcement operations and rulings. Many are operating now in open rebellion
against our constitutional system of taxation that grants only limited powers to tax,
i.e.: limited by either the Rule of uniformity if the tax is indirect, or by the Rule of
apportionment if direct.

The original Act of Congress that created the current personal income tax law was
the Underwood-Simmons Tariff Act of October 3, 1913. That Act of Congress did not
create or impose a direct tax, because that Act imposed a tariff. A tariff is one type
of an Impost, which is one of the three forms of indirect taxation that are
constitutionally authorized by Article 1, Section 8, clause 1. Those granted powers to
2

tax are then made enforceable at law, by a constitutionally authorized Congress,
under the original “Necessary and Proper” enabling enforcement clause of Article 1,
Section 8, clause 18. This gives the federal courts the ability to lawfully take a
subject-matter jurisdiction to enforce claims for those uniform indirect taxes, and the
apportioned direct taxes, of Article I. But no such jurisdiction is ever granted to
Congress to enforce claims for an unlimited direct tax, as unconstitutionally
practiced by the IRS in alleging deficiencies, and as held, in this case.
In this Petition it is alleged that the U.S. Tax Court, and the Ninth Circuit Court of
Appeals, each committed egregious reversible error and violated the U.S.
Constitution when they refused to address the irrefutable lack of a constitutionally
granted subject-matter jurisdiction of the federal courts that can be lawfully taken
under the 16th Amendment alone, to enforce the federal personal income tax as a
direct tax without any constitutional limitations; -for lack of an enabling
enforcement clause in the Amendment granting the authority to Congress to write
such tax law.

The 16th Amendment cannot be the source of a new taxing power for Congress to
exercise and enforce, as erroneously argued by the Commissioner and wrongfully
accepted by the lower courts in this dispute, for the irrefutable lack of an enabling
enforcement clause in that Amendment to properly authorize the U.S. Congress to
write new law to enforce a new power to tax (income) thereunder, allegedly directly
and without any applicable constitutional limitations, as wrongfully operationally
practiced by the IRS, erroneously argued by the Commissioner, and held in both the
lower courts, in this case. Those courts wrongfully and erroneously endorsed the
argument of the Commissioner and DOJ that the income tax is a direct tax newly
created under the 16th Amendment without any constitutional limitation being
applicable to the tax or taxing power. That holding was fatal reversible error.

3

It was fatal reversible error because the decisions of the lower courts in this case
directly contradict and violate the decisions of the U.S. Supreme Court taken in
the controlling decisions of Brushaber v. Union Pacific R.R. Co., 240 US 1, (1916)
and Stanton v. Baltic Mining Co., 240 US 103 (1916), where the court declared that
the true constitutional nature of the tax on income imposed in 1913 by the
Underwood-Simmons Tariff Act, was indirect, under Article I, Section 8, clause 1.

Flint v Stone Tracy Co., 220 US 107 (1911) clearly establishes the constitutional
limits of the range and scope of the legal power to tax indirectly by Impost, Duty and
Excise.
"Excises are "taxes laid upon the manufacture, sale or consumption of
commodities within the country, upon licenses to pursue certain
occupations, and upon corporate privileges ... the requirement to pay
such taxes involves the exercise of the privilege and if business is not
done in the manner described no tax is payable...it is the privilege
which is the subject of the tax and not the mere buying, selling or
handling of goods. Cooley, Const. Lim., 7th ed., 680." Flint v. Stone
Tracy Co., 220 U.S. 107, 151; 31 S.Ct. 342, 349 (1911); or a tax on
privileges, syn. "privilege tax". Black's Law Dictionary 6th Edition
Additionally, the appellate decision in the instant case not only directly contradicts
both of the Supreme Court decisions taken in Brushaber v. Union Pacific R.R. Co.,
240 US 1 (1916) and Stanton v. Baltic Mining Co., 240 US 103 (1916), it also
contradicts the decisions of the U.S. Court of Appeals for the Fourth Circuit in
Richmond, Virginia, in case #16-1689, which decision sustained the Richmond
district court’s holding in United States v. Lewis F. Carter, et al, case #3:15-cv-161,
that the federal income tax is constitutionally based, not on the 16th Amendment as
argued by the Commissioner, but only on the indirect taxing powers of Article I,
Section 8, clauses 1 and 18, i.e.: to tax indirectly by uniform taxation, where “income”
is used as the yardstick that measures the amount of the underlying indirect tax
that is owed as an Impost, Duty, or Excise. But the “income” is not itself the proper
subject, nor the object, of the indirect taxation. That “indirect” district court ruling
4

cited United States v. Melton, No. 94-5535, 1996 WL 271468, at *2 (4th Cir. May 22,
1996) (citing Brushaber v. Union Pacific R.R. Co., 240 US 1, 11, 16-19 (1916)) as the
basis for the “indirect tax” holding of the court, which was later sustained in the
Fourth Circuit in a subsequent action with the same defendant in Case No. #181471.

The federal income tax cannot be lawfully or constitutionally enforced by the federal
courts in a different manner in the different states and in the different U.S. Circuit
Courts of Appeals. It cannot lawfully be enforced as two different powers of taxation
in two or more different states, or in two or more different Circuit Courts, i.e.: as an
indirect tax in the Fourth Circuit, but as a direct tax without limitation as held in
the Ninth Circuit in this case. The income tax may only be lawfully enforced by the
lower courts as the same form of tax, under the same invoked power to tax, in
every state, and in every Circuit Court, in the country. This court now has a legal
duty to resolve the conflicted and contradictory rulings of the different Circuit
Courts of Appeals on this issue of the true constitutional nature of the federal
personal income tax that was enacted in 1913.

It is further alleged that the Tax Court, and the Ninth Circuit Court of Appeals,
committed further reversible error when they ruled that a “deficiency” for tax under
I.R.C. Sections 6211 and 6212 can violate those statutes and be based on Subtitle
“C” tax law, instead of just the Subtitle “A” laws that IRC Sections 6211 and 6212
mandate all deficiencies actually be based upon.

Additionally, the Ninth Circuit Court further erred when it ignored the lack and
absence of a properly declared and fully disclosed subject-matter jurisdiction of the
court to act in the civil action, to enforce the [alleged] deficiency as a direct tax under
the 16th Amendment without limitation, rather than as a uniform indirect tax
under Article I.

5

Thus, the standards of law used to control the decision in the lower courts was
wrongfully deemed to be “some substantive evidence” that was alleged presented by
the Commissioner, and a subsequent alleged failure of the Petitioner “to show by a
preponderance of evidence that the deficiency was arbitrary or erroneous”.

However, as all the Commissioner’s alleged evidence produced in the Tax Court was
improperly only based on payments earned outside of the Subtitle A tax laws that
are required to be used as the statutory foundation of a lawful deficiency claim under
IRC Sections 6211 and 6212, then clearly the wrong standards at law were adopted
by the court to decide this case.

Since there were no Subtitle “A” laws or “wages” that were used to calculate the
alleged deficiency, then it is the legal standards of:
1) the lack of a properly granted and fully disclosed subject-matter jurisdiction
of the court to act at law to enforce a direct tax without limitation on an
individual person (instead of upon the “several states”);
2) the constitutional limitations of Article I that
must still be applied to all federal taxation
whether direct or indirect, and
3) statutory construction;

that should have been used as the standards at law that controlled and commanded
the lower court decisions.

The absence of an enabling enforcement clause in the 16th Amendment is fatal to
the federal courts’ ability to lawfully take a fully granted subject-matter jurisdiction
of the court under that Amendment, to allow the court to enforce an allegedly new
and direct unlimited power to tax that was erroneously claimed by the
Commissioner to have been created in 1913 by the adoption of the 16th Amendment,
rather than as the indirect tax (it is) under the pre-existing Article I, Section 8,
6

clause 1 powers to tax by Impost, Duty, and Excise. Where Income” is used as the
yardstick that measures the amount of the indirect tax owed. “Income” is not the
taxable activity, or “thing'’, that is actually taxed (directly), it is the mechanism by
which the amount of the indirect tax due, is measured.

No taxing power that is alleged to have been created in 1913 by the adoption of the
16th Amendment can be shown to have been made constitutionally enforceable with
law that the U.S. Congress is constitutionally authorized to write, for lack of an
enabling enforcement clause in that Amendment.

That lack of a grant of

enforcement powers, by an enabling enforcement clause in that Amendment, is a
fatal defect in every claim that is made alleging subject-matter jurisdiction exists
and may be taken under authority of the 16th Amendment, rather than under Article
I, Section 8.

That enforcement authority of Congress, to write constitutionally authorized law, is
an essential and indispensable element of the federal courts’ ability to properly
establish that a fully-granted subject-matter jurisdiction of the court exists, that may
be lawfully taken by the court to enforce a specific claim for tax, i.e.: - here, the
Commissioner wrongfully demands the payment of a deficiency for an alleged direct
tax, that has been calculated outside of the Subtitle “A” tax laws, and is
erroneously alleged owed as a newly authorized direct tax without limitation under
authority of the 16th Amendment.

The federal courts, for want of an enabling enforcement clause in the 16th
Amendment, lack the ability to take a fully granted subject-matter jurisdiction of
the court to enforce claims for a direct tax, that are made under an alleged authority
of the 16th Amendment alone, severed from, and without foundational reliance upon
the indirect taxing powers granted and made enforceable at law under Article I
Section 8, clauses 1 and 18.

7

In summary, the direct and unlimited taxation of the labors and the fruits of labor
of the American People, derived from the simple exercise of the citizens’ right to
work, as operationally wrongfully practiced by the IRS in assessing deficiencies
outside of the subtitle “A” laws, - without a statutory specification of any liability for
the payment of any tax to lawfully enforce; without the use of the prerequisite
indirect basis of Excise, Duty, or Impost taxation; and without an applicable enabling
enforcement clause in the 16th Amendment to constitutionally authorize Congress to
write law to enforce any such alleged new power to tax income directly and without
limitation, is all patently unconstitutional.

Standards of Statutory Construction
The standards of statutory construction are well known.

Many examples were cited

in the Petitioner’s pleadings in the lower courts. Here, we cite just two:
"It is a basic principle of statutory construction that courts have no
right first to determine the legislative intent of a statute and then,
under the guise of its interpretation, proceed to either add words to or
eliminate other words from the statute's language. DeSoto Securities
Co. v. Commissioner, 235 F.2d 409, 411 (7th Cir. 1956); see also 2A
Sutherland Statutory Construction § 47.38 (4th ed. 1984). Similarly, the
Secretary has no power to change the language of the revenue statutes
because he thinks Congress may have overlooked something." Water
Quality Ass 'n v. United States, 795 F.2d 1303 (7th Cir. 1986), p. 1309 citing and quoting Calamaro
"As in all cases involving statutory construction, "our starting point
must be the language employed by Congress," Reiter v Sonotone Corp.,
442 US 330, 337, 60 L Ed 2d 931, 99 S Ct. 2326 (1979), and we assume
"that the legislative purpose is expressed by the ordinary meaning of
the words used." Richards v United States, 369 US 1, 9, 7 L Ed 2d 492,
82 S Ct. 585 (1962)
This appeal and Petition are predicated on the plain and clear language used in the
controlling statutes and clauses of the U.S. Constitution. The allegations of judicial
error are based on the clear and specific language used in the provisions of the

8

Constitution granting the two forms of federal taxation that are authorized and
made enforceable at law, i.e.: direct and indirect; -where all direct taxation must
obey the Rule of apportionment regardless of the adoption of the 16th Amendment,
and all indirect taxation must obey the Rule of uniformity.

The lower courts have also violated the statutes of Title 26 that establish the limits
of authority that control the lawful issuance of a Notice of Deficiency. The courts
have erroneously ignored or overlooked the controlling provisions of the Subtitle A
laws of IRC Sections 6211, 6212, 1441(b), and 1461.

ISSUE ARGUMENTS
ISSUE A
A. Does subject-matter jurisdiction exist to enforce the income tax as a
direct tax without limitation under the 16th Amendment?

Subject-matter jurisdiction of the federal courts cannot be lawfully established and
does not exist under the 16th Amendment, to allow the federal courts to take
jurisdiction thereunder, as erroneously alleged in this case, to enforce upon the
Petitioner the direct and unlimited tax on income that is now claimed owed as a
deficiency. This is clearly true because of the irrefutable lack of an enabling
enforcement clause in that Amendment, that would authorize the U.S. Congress to
write new law to enforce, without any applicable limitation, the direct tax alleged
owed under the 16th Amendment (as the deficiency at issue in this case).

The only direct taxation that the U.S. Congress is constitutionally authorized by an
applicable enabling enforcement clause of the Constitution to enforce, is the direct
taxation authorized (and limited) by Article I, Section 2, clause 3, and Article I,
Section 9, clause 4. That direct taxation, under those Article I clauses, must be
“apportioned to the “several States” for payment, and must also be laid in “proportion

9

to the last census”, regardless of the adoption of the 16th Amendment. These
original clauses of the Constitution have never been repealed or amended, and the
16th Amendment cannot accomplish that repeal (or amending) without text in the
Amendment clearly stating such legal effect as the intended effect, which cannot
otherwise be effected by mere inference, presumption, conjecture, supposition,
assumption, or even by opinions of the lower courts.
No direct or completely unlimited tax or taxation can be constitutionally enforced by
the U.S. courts under the 16th Amendment (or any other alleged authority of the
Constitution) against an American citizen as a taxable “person”. Nor may tax be
lawfully laid or imposed as a direct tax upon their labor or the fruits of labor derived
from the simple exercise of the citizens’ right to work and to earn money from labors
undertaken exclusively within the fifty states without the involvement of some
underlying Impost, Duty, or Excise taxable activity or privilege. This is true because
there inarguably is no enabling enforcement clause in the 16th Amendment to
properly constitutionally authorize the U.S. Congress to write any new laws to
enforce upon the American citizens a new, unapportioned, disproportionately
imposed and otherwise completely unlimited, direct tax on all earnings and
payments, allegedly redefined by a statute as “taxable income” as “gross income”.
Without an enabling enforcement clause that is made applicable to the specific taxing
power alleged invoked and exercised, subject-matter jurisdiction of the federal courts
is lacking and cannot be properly identified, legally established, or lawfully taken,
by any federal court, to allow the court to enforce a deficiency as a direct and
unlimited tax on all earnings.

An applicable enabling enforcement clause is an

essential and indispensable element of properly establishing that there is a fully
granted subject-matter jurisdiction of the court that actually exists, and that can be
lawfully established, invoked, and taken by a federal court, to allow it to enforce a
specific claim for a particular type of tax (Impost, Duty, or Excise), of a specific
constitutional nature, i.e.: direct or indirect.

10

Previous to the adoption of the 16th Amendment the taxation of income had been
repeatedly upheld by this Supreme Court as a legitimate and constitutional exercise
of the indirect taxing powers given to Congress to tax uniformly by Impost, Duty,
and Excise under the power and authority granted by Article I, Section 8, clause 1 of
the U.S. Constitution, and made enforceable at law by a constitutionally authorized
Congress under the “Necessary and Proper” enabling enforcement clause of Article I,
Section 8, clause 18. see Springer v. U. S., 102 U.S. 586, 26 L. ed. 253 (1880); Pollock
v. Farmer's Loan & Trust, 158 U.S. 601, (1895); Pacific Ins. Co. v. Soule, 7 Wall. 433,
19 L. ed. 95 (1868); Spreckels Sugar Ref. Co. v. McClain, 192 U.S. 397, 48 L. ed. 496,
24 Sup. Ct. Rep. 376. (1904); Flint v. Stone Tracy Co., 220 U.S. 107 (1911); Stratton's
Independence, Ltd. v. Howbert, 231 U.S. 399, at 416-417 (1913), and later, Bowers u.
Kerbaugh-Empire Co., 271 U.S. 170 (1926).

The Petitioner does not dispute this lawful, authorized, constitutional application of
the indirect taxing powers, but inarguably asserts that under Title 15 Section 17
there is no Impost, Duty or Excise tax or taxing power that reaches her person with
legal effect, or her right to work, or the fruits of her labors derived from her labors
conducted strictly within the State of California under and through a simple exercise
of her rights to work and to own and accumulate private property.

Furthermore, previous to the adoption of the 16th Amendment, all direct taxation
under Article I had to be apportioned to the States for payment and imposed in
proportion to the last census.

Therefore, any claim to an unlimited power to tax

directly and without limitation under the 16th Amendment, as a result of the
adoption of the Amendment, would certainly be a claim by the Commissioner to a
new power to tax, allegedly created by the Amendment. Any such new power, in
order to be enforceable in the federal courts, would require that an enabling
enforcement clause be present in the Amendment to authorize the U.S. Congress to
write law thereunder to enforce the new, previously non-existent, power to tax
without limitation. And only then could a federal court be able to identify both of
11

the essential constitutional elements necessary to fully establish that there was a
fully-granted subject-matter jurisdiction of the court that exists and could lawfully be
taken by it over the claim for a tax or deficiency alleged owed under authority of the
16th Amendment as a direct tax on all earnings.

In this case however, the Commissioner, the U.S. Tax Court, and the Ninth Circuit,
have all specifically rejected indirect taxation as the constitutional foundation for
the subject-matter jurisdiction of the court, and have instead erroneously endorsed
the Commissioner’s (IRS’) unlawful operational practice of enforcing the federal
income tax as a new power to tax directly and without any limitation under alleged
authority of the 16th Amendment, despite the irrefutable fact that there is no
enforcement authority granted to Congress under the Amendment because of the
fatal defect of the Amendment’s lack of an enabling enforcement clause to
constitutionally authorize the U.S. Congress to write new law to enforce this alleged
new and unlimited direct tax on “income”.

The 16th Amendment to the U.S. Constitution plainly reads:
16th Amendment
"The Congress shall have power to lay and collect taxes on incomes,
from whatever source derived, without apportionment among the
several States, and without regard to any census or enumeration."

The language that is used in this Amendment does not actually contain the word
"direct" in describing the tax on income that is addressed therein, and there
certainly is no enabling enforcement clause in the Amendment to properly grant a
new enforcement power to Congress to write new law, which is essential in order to
properly establish that a fully granted subject-matter jurisdiction of the court exists
to allow the enforcement by the court, of a new taxing power alleged created.

12

There is a particularly egregious error of the Tax Court in this dispute because the
legal effect of improperly adding by presumption the word "direct" to the 16th
Amendment in an interpretational opinion, rather than by factual inclusion, is to
wrongfully attempt to use the Amendment to destroy two other pre-existing
unrepealed and unamended clauses of the U.S. Constitution limiting the power to
tax directly. Article I, Section 2, clause 3 of the U.S. Constitution still reads today:
"Representatives and direct Taxes shall be apportioned among the several States”,
and Article I, Section 9, clause 4 still commands: "No Capitation, or other direct, Tax
shall be laid, unless in Proportion to the Census or Enumeration herein before
directed to be taken".

These clauses still exist in the U.S. Constitution. They have not been repealed nor
amended by any text of any Amendment stating such legal effect, not even with
respect to the taxation of income under the 16th Amendment.

Neither repeal, nor

amendment, of any provision of the Constitution may be lawfully or legitimately
assumed or inferred into alleged existence without being plainly stated in writing as
an intended legal effect1.
It is completely improper to use one clause of the Constitution (the 16th Amendment)
to destroy two other, pre-existing, Article I provisions that still constitutionally
limit the power to tax directly. This was carefully and specifically noted by the
Brushaber court in its original controlling decision.
“But it clearly results that the proposition and the contentions under it,
if acceded to, would cause one provision of the Constitution to destroy
another; that is, they would result in bringing the provisions of the
Amendment exempting
direct tax from apportionment into
irreconcilable conflict with the general requirement that all direct
taxes be apportioned. Moreover, the tax authorized by the
Amendment, being direct, would not come under the rule of uniformity
applicable under the Constitution to other than direct taxes, and thus it
would come to pass that the result of the Amendment would be to
See the very specific text of the 21st Amendment repealing prohibition.

13

authorize a particular direct tax not subject either to apportionment or
to the rule of geographical uniformity, thus giving power to impose a
different tax in one state or states than was levied in another state or
states. This result, instead of simplifying the situation end rrmldnpclear the_limitations on the taxing power, which obviously the
Amendment must have been intended to accomplish, would create
radical and destructive changes in our constitutional system
and multiply confusion ... In the matter of taxation, the Constitution
recognizes the two great classes of direct and indirect taxes, and lays
down two rules by which their imposition must be governed,
namely, the rule of apportionment as to direct taxes, and the rule of
uniformity as to duties, imposts, and excises.” Brushaber v. Union
Pacific R.R. Co., 240 U.S. 1, 11-13 (1916)
(emphasis added)
Therefore, as a tax without apportionment under the 16th Amendment, the federal
personal income tax cannot be enforced as a direct tax, as it can only be lawfully
sustained and enforced in the courts as an indirect tax under the Constitution
because indirect taxation is not subject to the Rule of apportionment, only the Rule
of uniformity.

Clearly, the income tax can only be sustained, (as a tax without

apportionment and without proportionate imposition as stated in the 16th
Amendment, and without creating any inherent conflicts with any other part of the
Constitution), as an indirect tax under Article I, Section 8. Any other application
or interpretation of the Amendment’s legal effect would destructively engineer a
court-manufactured, irreconcilable, inherent conflict between the Amendment and
the two pre-existing limiting clauses of Article I, as noted by the Supreme Court, and
would be an improper attempt to use one clause of the Constitution (the 16th
Amendment) to destroy those two other unrepealed and unamended clauses
limiting the power of all direct taxation. This court has consistently been clear about
these matters:
"The provisions of the Sixteenth Amendment conferred______
no new
power of taxation but simply prohibited the previous complete and
plenary power of income taxation possessed by Congress from the
beginning from being taken out of the category of indirect taxation to
which it inherently belonged . . ." Stanton v. Baltic Mining Co., 240
U.S. 103, pg. 112."
14

"The Congress shall have power to lay and collect taxes, duties, imposts
and excises." Art. 1, § 8. If the tax is a direct one, it shall be
apportioned according to the census or enumeration. If it is a duty,
impost, or excise, it shall be uniform throughout the United States.
Together, these classes include every form of tax appropriate to
sovereignty. Cf. Burnet v. Brooks, 288 U. S. 378, 288 U. S. 403, 288 U.
S. 405; Brushaber v. Union Pacific R. Co., 240 U. S. 1, 240 U. S. 12."
Steward Mach. Co. v. Collector, 301 U.S. 548 (1937), at 581

"Whether the tax is to be classified as an "excise" is in truth not of
critical importance. If not that, it is an "impost" (.Pollock v. Farmers'
Loan & Trust Co., 158 U. S. 601, 158 U. S. 622, 158 U. S. 625; Pacific
Insurance Co. v. Soble, 7 Wall. 433, 74 U. S. 445), or a "duty" (Veazie
Bank v. Fenno, 8 Wall. 533, 75 U. S. 546, 75 U. S. 547; Pollock v.
Farmers' Loan & Trust Co., 157 U. S. 429, 157 U. S. 570; Knowlton v.
Moore, 178 U. S. 41, 178 U. S. 46). A capitation or other "direct" tax
it certainly is not." Steward Mach. Co. v. Collector, 301 U.S. 548
(1937), at 581-2

"The [income] tax being an excise, its imposition must conform to the
canon of uniformity. There has been no departure from this
requirement. According to the settled doctrine the uniformity exacted is
geographical, not intrinsic. Knowlton v. Moore, supra, p. 178 U. S. 83;
Flint v. Stone Tracy Co., supra, p. 220 U. S. 158; Billings v. United
States, 232 U. S. 261, 232 U. S. 282; Stellwagen v. Clum, 245 U. S. 605,
245 U. S. 613; LaBelle Iron Works v. United States, 256 U. S. 377, 256
U. S. 392; Poe v. Seaborn, 282 U. S. 101, 282 U. S. 117; Wright v. Vinton
Branch Mountain Trust Bank, 300 U. S. 440." Steward Mach. Co. v.
Collector, 301 U.S. 548 (1937), at 583

"Evidently Congress adopted the income tax as the measure of the tax
to be imposed with respect to the doing of business in corporate form
because it desired that the excise should be imposed, approximately at
least, with regard to the amount of benefit presumably derived
by such corporations from the current operations of the government.
In Flint v. Stone Tracy Co. 220 U.S. 107, 165, 55 S.L. ed. 107, 419, 31
Sup. Ct. Rep. 342, Ann. Cas. 1912 B. 1312, it was held that Congress, in
exercising the right to tax a legitimate subject of taxation as a franchise
or privilege, was not debarred by the Constitution from measuring
the taxation by the total income, although derived in part from property
which, considered by itself, was not taxable. It was reasonable that
15

Congress should fix upon gross income, without distinction as to source,
as a convenient and sufficiently accurate index of the importance of the
business transacted.” Stratton's Independence, Ltd. V. Howbert, 231
U.S. 399, at 416 - 417 (1913)

The Sixteenth Amendment must be construed in connection with the
taxing clauses of the Original Constitution and the effect attributed to
them before the amendment was adopted. In Pollock ... it was held ...
that Congress could not impose such [direct] taxes without
apportioning them among the states according to population, as
required
by Article
I,
§
2,
cl.
3,
and
Article
I,
§ 9, cl. 4, of the original Constitution.
Afterwards, and evidently in recognition of the limitation upon the
taxing power of Congress thus determined, the Sixteenth Amendment
was adopted, ... As repeatedly held, this did not extend the
taxing power to new subjects ... Peck & Co. v. Lowe, 247 U.S. 165
172 (1918)

"This court had decided in the Pollock Case that the income tax law of
1894 amounted in effect to a direct tax upon property, and was invalid
because not apportioned according to populations, as prescribed by the
Constitution. The act of 1909 avoided this difficulty by imposing not an
income tax, but an excise tax upon the conduct of business in a
corporate capacity, measuring, however, the amount of tax bv the
income of the corporation. ...” Flint u. Stone Tracy Co. 220 U.S. 107,
55 L. ed. 389, 31 Sup. Ct. Rep. 342, Ann. Cas. 1912 B, 1312; McCoach v.
Minehill & S. H. R. Co. 228 U.S. 295, 57 L. ed. 842, 33 Sup. Ct. Rep.
419; United States v. Whitridge (decided at this term, 231 U.S. 144, 58
L. ed. —, 34 Sup. Ct. Rep. 24.” Stratton’s, supra at 414

"Moreover in addition the conclusion reached in the Pollock case did not
in any degree involve holding that income taxes generically and
necessarily came within the class of direct taxes on property, but on the
contrary recognized the fact that taxation on income was in its nature
an excise entitled to be enforced as such unless and until it was
concluded that to enforce it would amount to accomplishing the result
which the requirement as to apportionment of direct taxation was
adopted to prevent, in which case the duty would arise to disregard
form and consider substance alone and hence subject the tax to the

16

regulation as to apportionment which otherwise as an excise
would not apply to it." Brushaber, supra, at 16-17.
Therefore, since the subject-matter jurisdiction of the federal courts to enforce a
deficiency for a direct tax on income under alleged authority of the 16th Amendment
is in question in this action - because of the lack of an enabling enforcement clause
in the 16th Amendment, the Petitioner still seeks on the record an explanation of how
the alleged subject-matter jurisdiction of the federal courts has been established and
taken in this case under the 16^ Amendment to allow the court-ordered enforcement
of the direct tax on income.
"However late this objection has been made or may be made in any
cause in an inferior or appellate court of the United States, it must be
considered and decided before any court can move one further step in
the cause, as any movement is necessarily the exercise of jurisdiction.
Jurisdiction is the power to hear and determine the subject matter in
controversy between parties to a suit, to adjudicate or exercise any
judicial power over them;” State of Rhode Island v. The State of
Massachusetts, 37 U.S. 709, 718 (1838)

“In a long and venerable line of cases, the Supreme Court has held that,
without proper jurisdiction, a court cannot proceed at all, but can only
note the jurisdictional defect and dismiss the suit. See, e.g., Capron v.
Van Noorden, 2 Cranch 126; Arizonans for Official English v. Arizona,
520 U.S. 43, (1997). Bell v. Hood, supra; National Railroad Passenger
Corp. v. National Assn, of Railroad Passengers, 414 U.S. 453, 465, n.
13; Norton v. Mathews, 427 U.S. 524, 531; Secretary of Navy v. Avrech,
418 U.S. 676, 678 (per curiam); United States v. Augenblick, 393 U.S.
348 ; Philbrook v. Glodgett, 421 U.S. 707, 721; and Chandler v.
Judicial Council of Tenth Circuit, 398 U.S. 74, 86-88, distinguished. For
a court to pronounce upon a law's meaning or constitutionality when it
has no jurisdiction to do so is, by very definition, an ultra vires act.”
Pp. 93-102. Steel Co., aka Chicago Steel & Pickling Co. v. Citizens for A
Better Environment, No. 96-643, 90 F.3d 1237 (1998).

17

ISSUE B
B. Is the graduated taxation of citizens unconstitutional class legislation
that unlawfully discriminates against them by classifying them
differently, rather than treating them uniformly?
Graduated taxation, that uses tax-brackets with non-uniform rates of tax that are
imposed on classes of American citizens as persons who are made class members of
different classes by the tax-brackets of IR Section 1, is not authorized under the
U.S. Constitution, and is unconstitutional when enforced upon the citizens as an
indirect tax without the uniformity limitation. Graduated taxation may only be
constitutionally enforced against the inanimate taxable commodities and articles of
commerce subject to tax, and the privileged corporate, licensed, and foreign “persons”
that Congress is empowered to discriminate against in law based on the different
amounts of “income” realized in return from the enjoyment of a taxable privilege2
that is possessed.

But the U.S. Congress cannot lawfully discriminate in law against the American
people themselves on any basis, including wealth or amounts of earnings, or even
income, to create or legislate into existence different classes of American citizens who
are subjected to different rates of non-uniform taxation, by the same tax imposed,
depending upon the particular class that they are each discriminatorily assigned
to by the taxing legislation.

The U.S. Constitution does not authorize graduated taxation. Under the U.S.
Constitution, every tax, if direct, must be apportioned and imposed proportionately
under the last census, regardless of the adoption of the 16th Amendment in 1913,
and, if indirect, must be uniform in operation on all persons, and cannot be
graduated in its enforced application against the American citizens.

Graduated

taxation of the American people is quite simply unconstitutional class legislation.

2 Like the privileges of incorporation and those possessed by license.

18

The graduated taxation of American citizens by class legislation, is absolutely
repugnant to the U.S. Constitution because it violates the central tenet of all
taxation in America, i.e.: that every American is treated the same under the law, and
is taxed the same as all other Americans are taxed.
“The inherent and fundamental nature and character of a tax is that of
a contribution to the support of the government, levied upon the
principle of equal and uniform apportionment among the persons
taxed, and any other exaction does not come within the legal definition
of a 'tax.'” Pollock u. Farmer’s Loan & Trust Co., 157 U.S. 429 599
(1895)
There is no such thing in the theory of our national government as
unlimited power of taxation in congress. There are limitations, as he
justly observes, of its powers arising out of the essential nature of all
free governments; there are reservations of individual rights, without
which society could not exist, and which are respected by every
government. The power of taxation is subject to these limitations.
Citizens' Savings Loan Ass'n v. Topeka, 20 Wall. 655, and Parkersburg
v. Brown, 106 U.S. 487, 1 Sup. Ct. 442.” Pollock v. Farmer’s Loan &
Trust Co., 157 U.S. 429, 599 (1895)
The creation, by I.R.C. Section 1, of different tax brackets, that allegedly create
different classes of American persons, depending upon the tax-bracket they are
assigned to by that law, is unconstitutional.

It is unconstitutional because the

differing classes of citizens created under the law, are then all treated differently
under that law because the different class members are taxed differently, at
different rates, and on different amounts of earnings, and without uniformity across
the “several states”, even within each tax-bracket. Under the unlimited SALT
deduction of the 1986 IR Section 1 tax imposed, which deduction varies in every
state, and is formulaically controlled in each state by three different state tax
variables (state property, sales, & income, taxes), instead of being controlled by one
uniform federal formula to calculate the taxable gross income of a person-, and thus,
the citizens of the different states are taxed at different rates of tax and on differing
amounts of earnings, depending upon the class [tax-bracket] assigned and the
differing amounts of state tax paid in the state where they reside; -which destroys
19

the required geographical uniformity of the tax across the several states. This is
unconstitutional because that system of using the three different state rates of tax
to calculate federal gross income, and based on that, the total tax owed, destroys the
geographical uniformity amongst the states that is required of all indirect taxation
under Article I, Section 8, clause 1. The Constitution does not authorize the U.S.
Congress to use tax-brackets and non-uniform rates of taxation to prejudicially
create, and then discriminate in law against, different classes of American citizens
as persons” within the tax code, on any basis, including race, color, religion,
gender, age, national origin, wealth (property), different levels of earnings, or even
“income”. However, the corporate person, the foreign person, and the licensed
person, (as well as the inanimate commodities and articles of commerce subject to
tax), are constitutionally subject to this sort of discriminatory classification by
Congress based on the level of return (“income”) that is realized by them from the
possession of the taxable privilege enjoyed by the taxable person engaged in the
federally taxable activity subject to some impost, duty, or excise.

Congress, however, has no lawfully granted power what-so-ever to discriminate in
law against the individual American citizens themselves as “persons”, because the
citizens’ labor, fruits of labor, and right to work, are not lawfully or constitutionally
subject to the Excise taxation of a privilege” or the Impost taxation by tariff3 of a
“foreign” person’s activity in America.

To comply with the constitutionally required uniformity of taxation, Congress may
only discriminate in law with different rates of tax being imposed upon the
manufacture, sale, and consumption of commodities and Articles of Commerce
subject to tax, and upon the privileged (and therefore taxable) “persons” subject to
the indirect taxation of activities that are subject to some federal Impost, Duty, or
Excise tax, as was routinely recognized and well-settled by this court before the
3 As imposed by the Underwood-Simmons TariffAct of Oct. 3, 1913, - the original Act of Congress creating the
federal personal income tax.

20

adoption of the irrelevant 16th Amendment, which “conferred no new power of
taxation”. Baltic Mining, supra.
The only “persons” that the U.S. Congress may constitutionally discriminate in law
against, with non-uniform rates of taxation, are 1) the privileged corporate
persons” who have no God-given rights to work, to Life, to Liberty, to private
property, and to the pursuit of happiness, but who rather exist and operate only by
virtue of the government granted [and therefore federally taxable] “privilege” of
incorporation, and 2) persons not operating in America by right, but who hold a
license to deal in taxable commodities or Articles of Commerce subject to taxation; or
3) who are foreign to the United States of America, or are persons who are in a
foreign place (a territory, possession, or foreign country under a tax-treaty), and
therefore may be subjected to federal taxation by virtue of the privilege of the federal
protections provided under those circumstances and in those places.
Title 15 U.S.C. Section 17 specifically commands that: “The labor of a human being
is not a commodity or Article of Commerce”, and therefore, as such, the labors of the
American citizens, conducted by right, are completely removed from any
subjectivity to the indirect powers to tax, by Excise or otherwise.
The graduated direct taxation of the income of the American citizens as currently
operationally enforced by the IRS, without any indirect taxation basis, is patently
unconstitutional because the tax is neither apportioned nor uniform, as all
taxation is still required to be under the U.S. Constitution, regardless of the
adoption of the 16th Amendment.
Graduated direct taxation of the American people is not authorized by the U.S.
Constitution; - but it is demanded under the Communist Manifesto’s 2nd Plank. How
is it possible that the U.S. courts are enforcing a plank of the Communist Manifesto,
instead of the tax limitation clauses of the U.S. Constitution?

21

Hamilton says in one of his papers (the Continentalist): 'The genius of
liberty reprobates everything arbitrary or discretionary in
taxation. It exacts that every man, by a definite and general rule,
should know what proportion of his property the state
demands; ...” 1 Hamilton's Works (Ed. 1885) 270. Pollock u. Farmer’s
Loan & Trust Co., 157 U.S. 429, 596 (1895)
“The income tax law under consideration is marked by
discriminating features which affect the whole law. It
discriminates between those who receive an income of $4,000 and
those who do not. It thus vitiates, in my judgment, by this arbitrary
discrimination, the whole legislation. Pollock v. Farmer’s Loan &
Trust Co., 157 U.S. 429, 596 (1895)
“The legislation, in the discrimination it makes, is class
legislation. Whenever a distinction is made in the burdens a law
imposes or in the benefits it confers on any citizens by reason of their
birth, or wealth, or religion, it is class legislation, and leads
inevitably to oppression and abuses, and to general unrest and
disturbance in society. “Pollock u. Farmer’s Loan & Trust Co. 157
U.S. 429, 596 (1895)
It was hoped and believed that the great amendments to the
constitution which followed the late Civil War had rendered such
legislation impossible for all future time. But the objectionable
legislation reappears in the act under consideration.” Pollock v.
Farmer’s Loan & Trust Co., 157 U.S. 429, 596 (1895)
The great Amendments to which Justice Fields refers to, are of course the 14th
Amendment containing the Equal Protection clause guaranteeing to all persons the
equal protection of the law.

The concern identified by Justice Fields is clear. ALL class legislation, taxing or
otherwise, violates the equal protection clause of the 14th Amendment requiring
that all persons be provided with the equal protection of the law, equal opportunity,
equal rights, and equal treatment under the law. His concerns and warnings were
truly prophetic, as we are now confronted today with all of the same evil aspects of
the discriminatory and prejudicial, communistic class legislation of today’s income
tax laws, that he confronted, and that this court firmly rejected 125 years ago.
22

In conclusion, Justice Fields exposes the conflicted philosophical battle that was just
beginning in his day, but which is now consuming America with violence as we
arrive at the time of the fulfillment of Justice Fields’ prophecy:
“Here I close my opinion. I could not say less in view of questions of
such gravity that go down to the very foundation of the
government. If the provisions of the constitution can be set aside by
an act of congress, where is the course of usurpation to end? The
present assault upon capital is but the beginning. It will be but the
stepping-stone to others, larger and more sweeping, till our political
contests will become a war of the poor against the rich, -a war
constantly growing in intensity and bitterness. 'If the court sanctions
the power of discriminating taxation, and nullifies the
uniformity mandate of the constitution,’ as said by one who has
been all his life a student of our institutions, 'it will mark the
hour when the sure decadence of our present government will
commence.' If the purely arbitrary limitation of four thousand dollars
in the present law can be sustained, none having less than that amount
of income being assessed or taxed for the support of the government,
the limitation of future congresses may be fixed at a much larger sum,
at five or ten or twenty thousand dollars, parties possessing an income
of that amount alone being bound to bear the burdens of government;
or the limitation may be designated at such an amount as a board of
'walking delegates' may deem necessary. There is no safety in allowing
the limitation to be adjusted except in strict compliance with the
mandates of the constitution, which require its taxation, if imposed by
direct taxes, to be apportioned among the states according to their
representation, and, if imposed by indirect taxes, to be uniform in
operation and, so far as practicable, in proportion to their property,
equal upon all citizens. Unless the rule of the constitution governs, a
majority may fix the limitation at such rate as will not include any of
their own number.” Pollock v. Farmer’s Loan & Trust Co., 157 U.S.
429, 607 (1895)

Today, all direct taxes must still be apportioned to the states for payment and
imposed proportionately to the last census, regardless of the adoption of the 16th
Amendment; and all indirect taxation must be uniform in their effect upon the
American citizens.

23

The tax-brackets of the federal personal income tax laws, with non-uniform
discriminatory and prejudicial rates of income tax imposed on the different classes of
citizens created by the tax-brackets defined within the class legislation of the income
tax law, are not constitutional when enforced upon the American citizens and their
right to work, as a direct tax without limitation, and (or) without any legitimate
indirect basis for the taxation that is properly based upon one of the three indirect
powers to tax, i.e.: by Impost, Duty, or Excise.

The Constitution provides that representatives and direct [p556] taxes
shall be apportioned among the several States according to numbers,
and that no direct tax shall be laid except according to the enumeration
provided for, and also that all duties, imposts, and excises shall be
uniform throughout the United States.
The tax must be uniform on the particular article, and it is uniform,
within the meaning of the constitutional requirement, if it is made to
bear the same percentage over all the United States.
That is manifestly the meaning of this word as used in this clause. The
framers of the Constitution could not have meant to sav that the
government, in raising its revenues, should not be allowed to
discriminate between the articles which it should tax.
The difficulties in the way of this construction have, however, been very
largely obviated by the meaning of the word [p595] "uniform" which has
been adopted, holding that the uniformity must refer to articles of the
same class. That is, different articles may be taxed at different
amounts, provided the rate is uniform on the same class everywhere,
with all people, and at all times. Pollock u. Farmers' Loan & Trust Co.,
157 U. S. 429, 157 U. S. 57
It is only the inanimate commodities and articles of commerce and the privileeed
persons conducting taxable activities, that are subject to some Impost, Duty, or
Excise taxation, that may lawfully be discriminated against in law, by a graduated
tax law.

24

The Constitution does not allow the discriminatory and prejudicial non-uniform
taxation of the American People through the classification of the American citizens
in the fifty States into different classes that are defined by the tax-brackets of the
income tax law, on any alleged basis for the discrimination effected, -including on
the basis of the amount of income earned.
Under the Constitution the U.S. Congress cannot write discriminatory and
prejudicial, class based, non-uniform direct tax law (that is also laid without
apportionment or proportionate imposition of the tax under the census), on the
American people simply because they exist, live, work, and earn money in America; nor may it be done because of the adoption of the 16th Amendment.
“The inherent and fundamental nature and character of a tax is that of
a contribution to the support of the government, levied upon the
principle of equal and uniform apportionment among the persons
taxed, and any other exaction does not come within the Wal definition
of a 'tax.
Pollock v. Farmer’s Loan & Trust Co., 157 U.S. 429, 599
(1895)
The tax-brackets of our income tax system are being unconstitutionally used to
separate and divide the American people into different classes of persons.

The

discriminatory, prejudicial, graduated taxation of income that is wrongfully pursued
in operational practice by the IRS, for enforcement of the tax on income as a direct
tax without limitation, is outside of, and a violation of, the Constitutions’ granted
limited taxing powers. It cannot be sustained on review by any honest court.

In order to preserve equal opportunity, equal rights, and equal protection in the
United States of America for all citizens under the 14th Amendment, there must be
no class legislation, like the IR Section 1 income tax, that is used to create an
unconstitutional system of communistically graduated taxation of different classes
of American citizens, at different rates of tax imposed than is borne by the other
classes, - resulting in the unconstitutional, non-uniform, arbitrary, discriminatory

25

and prejudicial taxation of the labors of the American people simply exercising a
right to work.
The American citizens are not inherently federally taxable "persons", unlike the
corporate, licensed, and foreign persons, regardless of the fact that they allegedly
have income. Indirect taxation, including the lawful taxation of income, may only be
lawfully based on the taxpayer’s participation in some certain activity that is subject
to the application of some indirect Impost, Duty or Excise tax, where “income” is the
yardstick that measures the amount of tax owed, and is not the actual “thing” or
activity (earning money) that is the subject of the tax.

ISSUE C
C. Does the graduated taxation of the American citizens destroy equal
protection under the 14**1 Amendment when imposed directly upon them
without uniformity?
Graduated direct taxation of classes of American citizens allegedly created under
law, violates the 14th Amendment because the non-uniform rates of tax imposed on
each of the different classes of persons created by the tax-brackets that are defined in
the tax law of IRC Section 1, destroys the equal protection of the law, and thus
also destroys equal opportunity and the equal rights of the American people, to all be
treated uniformly by any tax law, whether it be a direct or indirect tax that is
imposed. The federal courts are not authorized to enforce upon the American people
the class legislation of the graduated taxation of the
2nd Plank of the Communist Manifesto in place of the constitutionally authorized
federal taxation that is always controlled, still today, by either the Rule of
uniformity whenever the tax is indirect, or by the Rule of apportionment whenever
the tax is direct, regardless of the adoption of the 16th Amendment.

In Coppage v. Kansas, 236 U.S. 1, 14, 59 L.Ed. 441, L.R.A. 1915C, 960, 35 S.Ct.Rep.
240 (1915), Mr. Justice Pitney wrote:
26

"Included in the right of personal liberty and the right of private
property - partaking of a nature of each- is the right to make
contracts for the acquisition of property. Chief among such
contracts is that of personal employment, by which labor and
other services are exchanged for money or other forms of property.
If this right be struck down or arbitrarily interfered with, there is a
substantial impairment of liberty in the long-established
constitutional sense."
In Yick Wo v. Hopkins, 118 U.S. 356 (1886), the Supreme Court, again, recognized
this fundamental right in declaring unconstitutional a statute that would force a
Chinese laundry businessman out of business, holding at 370:
"But the fundamental rights to life, liberty, and the pursuit of
happiness, considered as individual possessions, are secured by those
maxims of constitutional law which are the monuments showing the
victorious progress of the race in securing to men the blessings of
civilization under the reign of just and equal laws, so that, in the
famous language of the Massachusetts Bill of Rights, the government of
the commonwealth 'may be a government of laws and not of men.' For,
the very idea that one man may be compelled to hold his life, or the
means of living, or any material right essential to the enjoyment of life,
at the mere will of another, seems to be intolerable in any country
where freedom prevails, as being the essence of slavery itself."
"It requires no argument to show that the right to work for a living
in the common occupations of the community is of the very essence of
the personal freedom and opportunity that it was the purpose of the
[14th] Amendment to secure. Butchers' Union Co. v. Crescent City Co.,
Ill U.S. 746, 762; Barbier v. Connolly, 113 U.S. 27, 31; Yick Wo v.
Hopkins, supra; Allgeyer v. Louisiana, 165 U.S. 578, 589, 590; Coppage
u. Kansas, 236 U.S. 1, 14." Truax v. Raich, 239 U.S. 33, 41 (1915)

Many other precedential opinions exist supporting this understanding that an
American citizen’s right to work and earn money in the fifty states is not a federally
taxable activity.
"... Without doubt, it [liberty] denotes not merely freedom from bodily
restraint but also the right of the individual to contract, to engage
in any of the common occupations of life, to acquire useful
knowledge, to marry, establish a home and bring up children, to
27

worship God according to the dictates of his own conscience, and
generally to enjoy those privileges long recognized at common law as
essential to the orderly pursuit of happiness by free men. SlaughterHouse Cases, 16 Wall. 36; Butchers' Union Co. v. Crescent City Co., Ill
U.S. 746; Yick Wo v. Hopkins, 118 U.S. 356; Minnesota v. Barber, 136
U.S. 313; Allgeyer v. Louisiana, 165 U.S. 578; Lochner v. New York, 198
U.S. 45; Twining v. New Jersey, 211 U.S. 78; Chicago, Burlington &
Quincy R.R. Co. u. McGuire, 219 U.S. 549; Truax v. Raich, 239 U.S. 33;
Adams v. Tanner, 244 U.S. 590; New York Life Ins. Co. v. Dodge, 246
U.S. 357; Truax v. Corrigan, 257 U.S. 312; Adkins v. Children's
Hospital, 261 U.S. 525; Wyeth v. Cambridge Board of Health, 200 Mass.
474." Meyer v. Nebraska, 262 U.S. 390, 399, 43 S.Ct. 625 (1923)

"Whether "fundamental" or not, "'the right of the individual ... to
engage in any of the common occupations of life"’ has been repeatedly
recognized by this Court as falling within the concept of liberty
guaranteed by the Fourteenth Amendment. Board of Regents v. Roth,
408 U.S. 564, 572 (1972), quoting Meyer v. Nebraska, 262 U.S. 390, 399
(1923). As long ago as Butchers' Union Co. v. Crescent City Co., Ill
U.S. 746 (1884), Mr. Justice Bradley wrote that this right 'is an
inalienable right; it was formulated as such under the phrase 'pursuit
of happiness’ in the Declaration of Independence .... This right is a
large ingredient in the civil liberty of the citizen.' Id., at 762 (concurring
opinion). And in Smith v. Texas, 233 U.S. 630 (1914), in invalidating a
law that criminally penalized anyone who served as a freight train
conductor without having previously served as a brakeman, and that
thereby excluded numerous equally qualified employees from that
position, the Court recognized that 'all men are entitled to the equal
protection of the law in their right to work for the support of
themselves and families.' Id., at 641.
'In so far as a man is deprived of the right to labor his liberty is
restricted, his capacity to earn wages and acquire property is lessened,
and he is denied the protection which the law affords those who are
permitted to work. Liberty means more than freedom from servitude.
and the constitutional guarantee is an assurance that the citizen shall
be protected in the right to use his powers of mind and body in anv
lawful calling.’ Id., at 636." Massachusetts Bd. Of Retirement v. Murgia,
427 U.S. 307, 96 S.Ct. 2562 (1976)
The citizens’ labors, and simple exercise of the right to work, cannot lawfully be
taxed by Congress, neither directly, nor indirectly. See also In re Slaughter-House

28

Cases, 16 Wall. 36, 21 L.Ed. 394; Minnesota v. Barber, 136 U.S. 313, 10 S.Ct. 862, 34
L. Ed. 455; Lochner v. New York, 198 U.S. 45, 25 S.Ct. 539, 49 L.Ed. 937, 3 Ann.Cas.
1133; Twining v. New Jersey, 211 U.S. 78, 29 S.Ct. 14, 53 L.Ed. 97; Wyeth v.
Cambridge Board of Health, 200 Mass. 474, 86 N.E. 925, 23 L.R.A., N.S., 147, 128
Am.St.Rep. 439; Farrington v. Tokushige, 273 U.S. 284, 47 S.Ct. 406, 71 L.Ed. 646;
Pierce v. Society of Sisters, 268 U.S. 510, 535, 45 S.Ct. 571, 69 L.Ed. 1070, 39 A.L.R.
468; and Wysinger v. Crookshank, 82 Cal. 588, 23 P. 54.

There is no doubt that the right to work, and to pursue one's chosen common-law
occupation within the fifty states, is a basic and fundamental right of We the People
that the federal government, and, through the 14th Amendment, the States, may not
abridge.

This is a right that is not created, granted, or permitted by either the

federal or State governments; thus, it neither exists by any government’s authority,
nor is it introduced by its permission, and thus is not a federally taxable “thing” or
activity, but rather is constitutionally exempt because the American citizens’
exercise of rights, like the right to vote and the right to work, cannot be lawfully
taxed by Congress.
It is a fundamental duty and priority of the federal courts to protect the rights of the
American people.
"Where rights secured by the Constitution are involved, there can be no
rule making Or legislation which would abrogate them" Miranda v.
Arizona, 384 U.S. 436, 491 (1966)
“All laws, rules and practices which are repugnant to the Constitution
are null and void." Marbury v. Madison, 5th US (2 Cranch) 137, (1803)
"It is the duty of the courts to be watchful for the Constitutional rights
of the citizen and against any stealthy encroachments thereon" Boyd v.
United States, 116 U.S. 616 (1886)

29

ISSUE D
D. Is a deficiency under IRC Sections 6211 and 6212 based only upon the
Subtitle “A” tax laws as stated therein?
Deficiencies are defined in law by IRC Section 6211 and are only authorized therein
under Subtitle “A” tax law, not Subtitle “C”. The liability for tax that is imposed by
the statutes of Subtitle “A” is established under Section 1461, which is the only
statute in Subtitle A that identifies the statutory liability for the payment of the
personal income tax upon which a deficiency can be lawfully alleged under that
Subtitle.
§ 1461. Liability for withheld tax.
Every person required to deduct and withhold any tax under this
chapter is hereby made liable for such tax and is hereby indemnified
against the claims and demands of any person for the amount of any
payments made in accordance with the provisions of this chapter.
The Petitioner in this case has no liability for the payment of any tax under this
statute, and therefore, no lawful deficiency (of a required payment of tax) can exist.
And Title 26 U.S.C. Section 6211 provides the statutory definition of an actual tax
“deficiency” under the law. It states:
§6211. Definition of deficiency
(a)
In general. For purposes of this title in the case of income,
estate, and gift taxes imposed by subtitles A and B and excise taxes
imposed by chapters 41, 42, 43, and 44, the term "deficiency" means
the amount by which the tax imposed by Subtitle “A” or B, or
chapter 41, 42, 43, or 44, exceeds the excess of -...
(1) the sum of
(A) the amount shown as the tax by the taxpayer upon his return, if a
return was made by the taxpayer and an amount was shown as the
tax by the taxpayer thereon, plus

30

(B) the amounts previously assessed (or collected without
assessment) as a deficiency, over (2) the amount of rebates, ...
This statute very clearly states that federal income tax deficiencies are only based
on taxes imposed by subtitles A and B and excise taxes imposed by chapters 41, 42,
43, and 44...”.

A deficiency for Federal income tax is not based on taxes imposed

by, or collected under, the Subtitle “C” laws, as has erroneously been done in this
case.

Title 26 U.S.C. Section 6212 — “Notice of deficiency” clearly repeats the limitation
imposed on the authority of the I.R.S. to assess a deficiency only under “subtitles A
or B or Chapters 41, 42, 43, or 44“.

In this case however, it was the Subtitle “C” earnings of the Petitioner that have
been improperly used as the alleged basis for the deficiency.

But the statutory

deficiency is only lawfully created under Subtitle “A” tax law, not Subtitle “C”.

As supporting statutory evidence for the argument that the Subtitle “C 5? « wages” of
the American Citizens, are not subject to the limited Subtitle “A” deficiency
authorities authorized under IRC Sections 6211 and 6212, we must examine the
“wages” that are explicitly identified in the statutes of Subtitle “A” as being made
subject to the collection of the tax and are thus subject to the deficiency authorities of
Sections 6211 and 6212.

I R C. Section 1441(b) identifies the “Income items” that were made the subject of
the income tax laws in 1913 by the original income tax legislation, and thus, may be
used today as the basis for the calculation of a deficiency for tax under the Subtitle
“A” statutes. It reads:

31

§ 1441. Withholding of tax on nonresident aliens
(b) Income items
The items of income referred to in subsection (a) are interest (other
than original issue discount as defined in section 1273), dividends, rent,
Salaries, wages, premiums, annuities, compensations, remunerations,
emoluments, or other fixed or determinable annual or periodical gains,
profits, and income, .... The items of income referred to in subsection (a)
from which tax shall be deducted and withheld at the rate of 14 percent
are amounts which are received bv a nonresident alien individual
who is temporarily present in the United States as a nonimmigrant
under subparagraph (F), (J), (M), or (Q) of section 101(a)(15) of the
Immigration and Nationality Act and which are— ....
Of course, the "subsection (a)", referred to in the first line of this statute, is IRC
Section 1441(a), which is titled, and only provides for the “Withholding of tax on
nonresident aliens”, as plainly stated in subsection (b).
Petitioner is not the “nonresident alien individual” (identified in the statute) whose
“wages” are subject to the collection of the tax under the Subtitle A laws, and thus
she earns no wages” subject by law to the Subtitle “A” deficiency procedures under
IRC Section 6211. This is true because her “wages” are not the “wages” specified as
being made subject in Subtitle “A” law (by Section 1441(b)), to the collection of the
tax. It is Subtitle “A” law that is required by Section 6211 and 6212 to be the basis
of a deficiency, not Subtitle “C” law.

The words “wages” and “salaries” appear

nowhere else in Subtitle “A” except in Section 1441(b). They simply do not exist in
any other statute of Subtitle “A” (Chapters 1 through 6) of Title 26 U.S.C. Therefore,
no other “wages” or “salaries” under Subtitle “C” law can lawfully be used as the
legal basis for the calculation of an alleged deficiency under authority of Subtitle A.
Petitioner is not the “non-resident alien” individual person described in IRC Section
1441(a), whose “salary” and “wages” are specifically made subject by law under IRC
Sections 1441(b) and 6211, to the deficiency procedures of Subtitle “A” law. The
alleged deficiency in this case is wrongfully based on “wages” that were earned and
32

reported only under the Subtitle “C” employment tax laws, not the Subtitle “A”
income tax laws. That Subtitle “C” basis was not a lawful basis for a claim of a
deficiency under Subtitle ‘A” law.

The federal personal income tax statutes of 1913 that were enacted by Congress
under the Underwood-Simmons Tariff Act of Oct. 3, 1913, only establish a statutory
liability for the payment of the Subtitle ‘A” income tax in the name of the federal
tax-collectors, - who are defined in law under IR Section 7701(a)(16), as “Withholding
Agents”.
§ 7701 Definitions.
(a) When used in this Title ...
(16). Withholding Agent. - The term "Withholding Agent" means
any person required to deduct and withhold any tax under the
provisions of sections 1441, 1442, 1443, or 1461.”
Of course, Section 1441, referenced here, is where the “wages” of the non-resident
alien were previously shown to be made subject to the collection of the tax imposed
under Subtitle “A” law, and thus, to the deficiency procedures of Section 6211 and
6212. Section 1461, supra, is the only statute in Subtitle “A” that makes any person
liable for the payment of the federal personal income tax.
“If any question of fact or liability be conclusively presumed against
him, this is not due process of law." [Black's Law Dictionary 500 (6th
ed. 1990); accord, U.S. Department of Agriculture v. Murry. 413 U.S.
508 [93 S.Ct. 2832, 37 L.Ed.2d 767] (1973); Stanley v. Illinois. 405 U.S.
645 [92 S.Ct. 1208, 31 L.Ed.2d 551] (1972)]
The Tax Court erred by ignoring the limited nature of the statutory liability that
exists in the written law of Subtitle A, under Section 1461, and instead, has enforced
an improperly assumed liability for tax that does not exist in statute to legally base
a deficiency upon under Subtitle “A” tax law, as required.

33

“Tax liability is a condition precedent to the demand. ...” Flora v. United
States, 362 U.S. 145, 176, 80 S.Ct. 630, 646-47, 4 L.Ed.2d 623 (1960),
Therefore, the Tax Court and Circuit Court both committed reversible error when
they failed to acknowledge the clearly written laws that exist under the Subtitle “A”
statutes of IRC Sections 1461, 1441(b), 6211, and 6212, that plainly and clearly
define and limit a deficiency for tax to the taxes imposed by Subtitles “A” (and “B”...)
and does not include the tax laws or other sources of earnings that are earned or
taxed instead under Subtitle “C” tax law.

There are no other individual persons, other than the non-resident alien individuals
of Section 1441, who are made subject to the collection of, and liable for the payment
of, the federal personal income tax under the Subtitle “A” tax laws of Title 26. The
inclusion of Petitioner's Subtitle “C” "wages" by the Commissioner in the calculation
of the deficiency alleged owed was erroneous because it improperly and unlawfully
extended the taxing authorities beyond that defined in law by Sections 6211 and
6212, under Subtitle “A” laws, to matters outside of that Subtitle. The standards of
statutory construction preclude the federal courts from expanding the force of law
beyond the stated statutory scope of the law as written by Congress.

34

SUMMARY AND CONCLUSION
In summary, it is therefore clear that both the U.S. Tax Court and the Ninth Circuit
Court of Appeals erred egregiously in their Opinions and Decisions taken in this case
because they accepted the erroneous argument that the 16th Amendment created a
new taxing power for Congress to exercise, i.e.: a power to tax directly and without
any limitation.
"The provisions of the Sixteenth Amendment conferred no new
power of taxation but simply prohibited the previous complete and
plenary power of income taxation possessed by Congress from the
beginning from being taken out of the category of indirect taxation to
which it inherently belonged ..
Stanton v. Baltic Mining Co., 240
U.S. 103, pg. 112."

RELIEF REQUESTED
Petitioner now calls upon this Supreme Court to invoke and honor their
constitutional duty to reign in this violative open rebellion against the U.S.
Constitution that is occurring, and to uphold the Article I protections that are still
afforded and guaranteed the American People with respect to all direct taxation,
and: "hence subject the tax to the regulation as to apportionment which
otherwise as an excise would not apply to it", as called for in the controlling
Brushaber Opinion, supra, at 16-17.

35

PRAYER for JUSTICE
Petitioner now prays this honorable court will grant this Petition for Writ of
t

Certiorari, so that this court can collectively address these incredibly important
constitutional issues, and the matter of vital national importance of ending the
wrongful enforcement of the class legislation of the federal personal income tax as a
direct tax without constitutional limitation.

Respectfully,

Carrie Rae Eldridge, in propria persona
1247 Ramona Street
Ramona, California 92065
(858)663-5548

36

